     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
December 12, 2011

Report Number: A-04-11-06139

Mr. Dean M. Harrison
President and CEO
Northwestern Memorial Healthcare
251 E. Huron
Chicago, IL 60611

Dear Mr. Harrison:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Northwestern Memorial Hospital in Chicago, Illinois, Met
Applicable Medicare Payment Requirements for Yttrium-90 Brachytherapy Claims. We will
forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-11-06139 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
   Department of Health and Human Services
               OFFICE OF 

          INSPECTOR GENERAL 





 NORTHWESTERN MEMORIAL HOSPITAL 

IN CHICAGO, ILLINOIS, MET APPLICABLE 

  MEDICARE PAYMENT REQUIREMENTS 

   FOR YTTRIUM-90 BRACHYTHERAPY 

               CLAIMS





                          Daniel R. Levinson

                           Inspector General 


                            December 2011

                            A-04-11-06139 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                           INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with end-stage
renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Brachytherapy

Brachytherapy is a radiation therapy used to treat cancer. The American Medical Association
defines “clinical brachytherapy” as “the use of either natural or man-made radioelements applied
into or around a treatment field of interest. The supervision of radioelements and dose
interpretation are performed solely by the therapeutic radiologist.” The American Brachytherapy
Society defines “permanent” brachytherapy as a treatment in which seeds or sources remain
inside the body and “temporary” brachytherapy as placement of radiation sources for a set
duration before being removed. Two types of permanent sources are radioactive seeds and
Yttrium-90 microspheres.

Yttrium-90 Microspheres

Two Yttrium-90 products are approved by the Food and Drug Administration and commercially
available: Theraspheres, manufactured by MDS Nordion in Canada, and SIR-Spheres,
manufactured by Sirtex Medical Limited in Australia. Yttrium-90 microspheres are
brachytherapy sources used to treat cancer that has spread to the liver. The interventional
radiologist delivers the microspheres using a catheter. Both manufacturers indicate that each
therapeutic treatment order is intended for a single patient.

Medicare Payments for Brachytherapy Sources

Yttrium-90 microspheres are reimbursed using Healthcare Common Procedure Coding System
code C2616. Section 1833(t) (16) (C) of the Act states that the payment for a device or
radiopharmaceutical under this subsection shall be equal to the hospital’s charges for each device
or radiopharmaceutical furnished, adjusted to cost. The formula for the calculation of this cost is
the extension of the hospital’s cost-to-charge ratios times the Medicare charges for the sources.1

NORTHWESTERN MEMORIAL HOSPITAL

Northwestern Memorial Hospital (Northwestern) is an 894-bed academic medical center located
in Chicago, Illinois. From September 1, 2008, through August 31, 2010, Northwestern billed
Medicare for 177 Yttrium-90 microsphere brachytherapy treatments.




1
 The Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275, § 142 amended
§ 1833(t)(16)(C) of the Act to extend this payment methodology through December 31, 2009.

                                                      1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Northwestern met applicable Medicare payment
requirements for Yttrium-90 brachytherapy claims.

Scope

We reviewed all 177 Medicare outpatient Yttrium-90 brachytherapy paid claims totaling
$3,439,533 for Northwestern’s cost-reporting periods from September 1, 2008, through August
31, 2010.

We limited our review of Northwestern’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We performed fieldwork in May 2011 at Northwestern in Chicago, Illinois.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidance;

   	 reviewed Illinois Administrative Codes regulating control of radioactive materials;

   	 used CMS’s National Claims History file to identify paid outpatient Medicare claims
      containing brachytherapy HCPCS codes;

   	 selected all 177 outpatient Medicare claims containing Yttrium-90 brachytherapy HCPCS
      codes for Northwestern from September 1, 2008, through August 31, 2010;

   	 reviewed Medicare claim forms, patient medical records and Northwestern’s additional
      supporting documentation for the identified claims;

   	 reviewed required logs, inventories, and additional documentation supporting that
      Northwestern met all State regulatory requirements for the proper handling, tracking, and
      disposal of radioactive sources required for Medicare payment for brachytherapy sources;
      and

   	 reviewed purchase orders, invoices, proof of payment, and medical records to determine
      whether any brachytherapy sources billed to Medicare were either unused or used in the
      treatment of multiple patients.

                                                2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Northwestern met applicable Medicare payment requirements for all 177 claims for Yttrium-90
brachytherapy. Therefore, we are making no recommendations.




                                               3

